                                   UNITED STATES DEPARTMENT OF EDUCATION
                                                OFFICE OF INSPECTOR GENERAL
                                                      KANSAS CITY OFFICE

                                              8930 Ward Parkway, Suite 2401
                                             Kansas City, Missouri 64114-3302

 AUDIT SERVICES                                                                                                   INVESTIGATION SERVICES
                                                  Telephone (816) 268-0500
FAX (816) 823-1398                                                                                                    FAX (816) 268-0526


                                                                                           December 20, 2004


       Dr. D. Kent King
       Commissioner of Education
       Missouri Department of Elementary
          and Secondary Education
       P.O. Box 480
       Jefferson City, MO 65102

        Dear Dr. King:

        This final audit report, Control Number ED-OIG/A07EOO18,presents the results of our
        audit of the Missouri Department of Elementary and Secondary Education's (DESE's)
        administration of provisions under Title I of the Elementary and Secondary Education
        Act of 1965 (ESEA) relating to consolidating funds in schoolwide programs. The
        objectives of our audit were to determine (i) ifDESE has encouraged schools to
        consolidate funds from federal, state, and local sources in their schoolwide programs; (ii)
        ifDESE has modified or eliminated state fiscal and accounting barriers so that schools
        can easily consolidate funds from federal, state, and local sources in their schoolwide
        programs; and (iii) whether schools are consolidating funds and their reasons for doing or
        not doing so.

        We found that (i) DESE has not encouraged schoolwide programs to consolidate funds
        from federal, state, and local sources; (ii) there were no state fiscal or accounting barriers
        to consolidating funds in schoolwide programs; and (iii) several schools we reviewed
        were not consolidating funds.

        We recommend that the Assistant Secretary for Elementary and Secondary Education
        require DESE to encourage local educational agencies (LEAs) and schools to consolidate
        funds by providing information to them about the potential benefits of consolidating
        funds, guidance on how to consolidate funds, and other measures DESE deems
        appropriate. We also recommend that DESE be required to amend its accounting and
        administrative manuals to encourage consolidating funds in schoolwide programs.




              Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
                                     AUDIT RESULTS

DESE has not provided information to LEAs or schools on how to consolidate federal,
state, and local funds or otherwise encouraged them to do so. DESE officials stated that
they held a statewide conference and regional workshops at which they informed LEAs
of their options regarding consolidating funds. They provided us documents that they
had disseminated to LEAs at those meetings related to consolidating funds, but the
documents only showed how the LEAs were to complete their annual applications to
DESE. The applications contained an allocations report that would facilitate an LEA’s
reporting of transfers and consolidation of federal funds. However, the documents did
not contain any information on how to consolidate federal, state, and local funds or
encourage LEAs and schools to do so.

According to 34 C.F.R. 200.29(e), each State must (i) Encourage schools to consolidate
funds from Federal, State, and local sources in their schoolwide programs; and (ii)
Modify or eliminate State fiscal and accounting barriers so that schools can easily
consolidate funds from Federal, State, and local sources in their schoolwide programs.
(Regulations effective January 2, 2003)

Our visits to LEAs confirmed that DESE was not encouraging local officials to
consolidate funds in their schoolwide programs. Officials of all seven LEAs we visited
indicated that DESE had not given them sufficient information about consolidating funds.
Officials of four of the seven LEAs said specifically that DESE had not given them any
information on how to consolidate funds.

DESE’s failure to encourage consolidating funds is further demonstrated in manuals it
developed for use by LEAs. The DESE Accounting Manual gives no information on
how to consolidate federal, state, and local funds in schoolwide programs, nor does it
even refer to the consolidating funds provisions. DESE’s Administrative Manual for the
Consolidated Federal Programs also contains no guidance on consolidating federal, state,
and local funds.

DESE officials stated that they had not provided more information to LEAs and schools
about consolidating funds because the U.S. Department of Education (Department) had
not provided written guidance on the topic.1 They also indicated that they had not
discussed consolidating funds more with LEAs and schools because of other priorities,
such as adequate yearly progress and the option of transferring funds between ESEA
programs.



1
  The Department offers guidance on consolidating funds in the form of questions and answers on
its web site at http://www.ed.gov/legislation/ESEA/Title_I/swpguid1.html#fedfund.



                                               2
DESE’s failure to encourage LEAs and schools to consolidate funds may result in LEAs
and schools not understanding the potential benefits of consolidating funds. As a result,
schools may not be taking advantage of an option that could help them improve the
academic achievements of all students, particularly the lowest-achieving students. If
DESE were to encourage the consolidation of funds in schoolwide programs, the likely
outcome may be that the LEAs we visited that were not consolidating funds, and others
like them, would consider this option for flexibility in implementing and managing their
schoolwide programs.

Several schoolwide programs we reviewed were not consolidating funds. In addition to
the 7 LEAs we visited, we conducted telephone interviews with officials from 12 LEAs.2
We determined that 15 LEAs did not consolidate funds and 4 LEAs did consolidate funds
to some degree. We also asked LEAs for their reasons for consolidating funds or not
doing so, since knowledge of these reasons might help DESE determine how best to
encourage LEAs to consolidate funds.3

The reasons LEA officials gave for not consolidating funds are as follows:
    •   Four LEAs stated that it was easier not to consolidate funds;
    •   Four LEAs stated that they had enough money from Title I to do what they
        wanted to in their schoolwide programs;
    •   Three LEAs stated that they had no need to consolidate funds or saw no
        advantage to consolidating funds;
    •   Three LEAs stated that they had always kept funds separate and they just
        continued to do so;
    •   Three LEAs believed that it was necessary to keep funds separate because of audit
        requirements;4
    •   Two LEAs stated that accounting for funds separately by program made it easier
        to complete DESE reports; and
    •   One LEA stated that it had targeted programs that met specific needs and it
        wanted to make sure that the needs continued to be met.

The reasons LEA officials gave for consolidating funds are as follows:
    •   Two LEAs stated that consolidating funds made it easier to accomplish the goals
        of their schoolwide programs;
2
  Out of Missouri’s 524 LEAs, 136 ran schoolwide programs in school year 2003-04.
3
  Because some LEAs gave more than one reason for how they were accounting for their
schoolwide funds, the total number of reasons in each of the following two categories does not
equal the total number of LEAs in each category.
4
  The LEAs’ Independent Auditors stated they had not instructed the LEAs to keep funds
separate.



                                                3
   •   Two LEAs stated that consolidating funds made accounting for funds easier
       because they do not have to track funds separately in their schoolwide programs;
       and
   •   One LEA stated that consolidating funds made it easier to complete DESE
       reports.

There are some parallels between the reasons LEAs gave for not consolidating funds and
the reasons other LEAs gave for doing so. That is, some of the reasons for consolidating
funds responded to, or addressed, reasons given for not consolidating funds.
Testimonials at conferences and workshops by LEAs that consolidated funds in their
schoolwide programs might be an effective way to encourage other LEAs to follow suit.

Also, LEAs may not always provide information about consolidating funds to their
schools. The federal programs director of an LEA we visited stated that it would be up to
each school to decide to consolidate funds. However, officials from the two schools we
interviewed at that LEA said that they had no knowledge that consolidating funds was an
option open to them. If DESE took steps to ensure that school officials, as well as LEA
officials, were informed about the potential benefits of consolidating funds, the decisions
about whether or not to take advantage of the option could be made in consideration of
the insights of those closest to the ultimate beneficiaries of schoolwide programs, the
students.

RECOMMENDATIONS:

We recommend that the Assistant Secretary for Elementary and Secondary Education
require DESE to
   1. Provide specific encouragement to LEAs and schools to consolidate federal, state,
      and local funds in schoolwide programs, including providing
       a. Information about the potential benefits of consolidating funds through such
          means as conferences, written and telephone communications, and site visits;
          and
       b. Guidance on how to consolidate funds; and
   2. Amend the DESE Accounting Manual and Administrative Manual for the
      Consolidated Federal Programs to encourage consolidating funds in schoolwide
      programs.

                   AUDITEE COMMENT AND OIG RESPONSE

In its response to our draft audit report (full text enclosed), DESE was noncommittal
about most of our recommendations. DESE agreed that it had not encouraged
consolidating funds in schoolwide programs. It also stated its belief that consolidating
funds is a local control issue and should be done at the LEA’s and school’s discretion. It



                                             4
added that it would include some guidance on consolidating funds in its Administrative
Manual for Consolidated Federal Programs.

We have not changed our position as a result of DESE’s comments. While the decision
of whether or not to consolidate funds is up to the individual LEA and school, federal law
and regulations require the state to encourage consolidating funds in schoolwide
programs.

                                    BACKGROUND

The Elementary and Secondary Education Act of 1965, as amended, authorizes
schoolwide programs to use funds under Title I, Part A, along with other federal, state
and local funds, to upgrade the entire educational program in a school in order to improve
the academic achievement of all students, particularly the lowest-achieving students.
This is in contrast to targeted assistance programs, in which program funds may be used
only for supplementary educational services for eligible children identified as being most
at risk of not meeting state standards.

A school operating a schoolwide program is not required to identify particular students as
eligible to participate in the program, or demonstrate that the services provided with Title
I, Part A funds are supplemental to services that would otherwise be provided. The
school is also not required to maintain separate fiscal accounting records, by program,
that identify the specific activities supported by those particular funds, but must maintain
records that demonstrate that the schoolwide program addresses the intent and purposes
of each of the federal programs whose funds were consolidated to support the schoolwide
program. In a notice the Department published in the Federal Register on July 2, 2004, it
provided information on consolidating funds that included guidance on ways a
schoolwide program can meet the intent and purposes of specific federal programs.
(Federal Register/Vol. 69, No. 127, Page 40360/Notices) This document can be viewed
via the following website:.

Congress, under the No Child Left Behind Act, effective January 8, 2002, stated that state
educational agencies must encourage schools to consolidate funds from federal, state and
local sources in their schoolwide programs, and must modify or eliminate state fiscal and
accounting barriers so that these funds can easily be consolidated.

                  OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to determine
   •   If DESE has encouraged schools to consolidate funds from federal, state, and
       local sources in their schoolwide programs;
   •   If DESE has modified or eliminated state fiscal and accounting barriers so that
       schools can easily consolidate funds from federal, state, and local sources in their
       schoolwide programs; and


                                             5
   •   Whether schools are consolidating funds and their reasons for doing or not doing
       so.

To accomplish our objectives, we
   •   Reviewed applicable federal and state law and regulations;
   •   Reviewed files relating to schoolwide projects at DESE and at the Department’s
       Office of Elementary and Secondary Education;
   •   Interviewed Department, DESE, LEA, and school personnel, as well as
       Independent Public Accountants who had audited the LEAs we had visited;
   •   Reviewed the two most recent state single audits;
   •   Obtained and analyzed documents and records related to schoolwide programs at
       DESE and the LEAs, including organization charts and accounting policies and
       procedures; and
   •   Visited seven LEAs and seven schools.

We judgmentally selected 7 of the 136 LEAs that had schoolwide programs in order to
visit LEAs receiving varying amounts of Title I funds for FY 2003-04, those that
consolidated funds and those that did not, and those that were geographically located so
as to minimize our travel expenses. We selected an additional 12 LEAs to interview by
telephone based on the amount of Title I funds they received.

We visited the Department’s Office of Elementary and Secondary Education program
offices, located in Washington, D.C., from March 22 to March 24, 2004. We conducted
fieldwork at DESE, in Jefferson City, Missouri, during the periods from April 19 to April
23, 2004, and June 1 to June 2, 2004, and at the LEAs during the period from April 21 to
June 3, 2004. We conducted additional review and analyses of the materials we had
obtained from June 10 through July 30, 2004, and held a final exit conference with a
DESE official on August 20, 2004. Our audit was conducted in accordance with
generally accepted government auditing standards appropriate to the scope of review
described above.

                    STATEMENT ON INTERNAL CONTROLS

We did not assess the adequacy of the internal control structure of DESE because such
assessment was not necessary to achieve our audit objectives.

                           ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions
and recommendations in this report represent the opinions of the Office of Inspector
General. Determinations of corrective action to be taken will be made by the appropriate
Department officials.


                                            6
If you have any additional comments or information that you believe may have a bearing
on the resolution of this audit, you should send them directly to the following Department
official, who will consider them before taking final Departmental action on this audit:

                       RaYmondSimon
                       Assistant Secretary
                       Office of Elementary and Secondary Education
                       U.S. Department of Education
                       400 Maryland Ave., SW
                       Washington, DC 20202

It is the policy of the Department to expedite the resolution of audits by initiating timely
action on the findings and recommendations contained therein. Therefore, receipt of your
comments within 30 days would be appreciated.

In accordance with the Freedom ofInformation Act (5 D.S.C. § 552), reports issued by
the Office of Inspector General are available to members of the press and general public
to the extent information contained therein is not subject to exemptions in the Act.


                                  Sincerely,


                               1~              ,!J . ~"'-7
                            {IA- Richard J. Dowd
                                 Regional Inspector General
                                    for Audit

Enclosure




                                               7
D. Kent King                                                                                                                 P.O.Box480
Commissioner of Education                                                                                   JeffersonCity,MO65102-0480
                                                                                                                      http://dese.mo.gov



                            MissouriDepartmentof ElementaryandSecondaryEducation
                                 - Making
                                        apositive
                                                difference
                                                        through
                                                              education       -
                                                                     andservice

                                                                                                                            ~




                                                November 10, 2004
                                                                             i~"~.. NOVI 9 2004                         !
                                                                                 '-
                                                                                 ~            ,



                                                                                                      flU
                                                                                                                        f
                                                                             f                    1"
                                                                                                  ,



           Ms. Janice D. Keeney                                             L~       =.",',                       ~..


           Assistant Regional Inspector General for Audit
           Office of Inspeetor General
           U. S. Department of Education
           8930 Ward Parkway, Suite 2401
           Kansas City, MO 64114-3302

           Dear Ms. Keeney:

           The Missouri Department of Elementary and Secondary Education (DESE) has the
           following response to recommendations contained in the draft audit report received on
           October 8, 2004:

           There are many federal mandates in the No Child Left Behind Act. Consolidating federal
           program funds in schoolwide programs is not a mandate; therefore, DESE believes that
           this is a local control issue and should be done at the district's and building's discretion.
           Although DESE has not encouraged or discouraged consolidating funds in schoo1wide
           programs, DESE has not created barriers that would prohibit schools from consolidating
           funds in their schoolwide programs.

           DESE is in the process of revising its Administrative Manual for Consolidated Federal
           Programs and will include some guidance on consolidating funds in the schoolwide
           section.

            Sincerely,



           Df!(1t1
